XldNaddEV

TABLE OF CONTENTS
Federal Appendix:
Appendix A: Court of Appeals Rehearing.... la
Appendix B: Court of Appeals Order &
lb,2b,3b
Judgment
Appendix C: District Court
Final Judgment..................

la, 2a

State Appendix:
Appendix A: Supreme Court Order

la

Appendix B: Order from the Supreme Court
Clerks, Responders Joey Moya & Amy
Mayer................................................................ lb
Appendix C: Petitioners front Page of
Complaint...............................................

lc

Appendix D: Order/Writ of Mandamus

Id

Appendix E: Margette’s Warranty Deed

le

2
BASIS FOR JURISDICTION
IN TfflS COURT
The jurisdiction of this Court is invoked pursuant
to the Provisions of 28 U.S.C. Section 1254(1).
Damages for interference with contractual relations.
Inverse condemnation, taking, and Civil Conspiracy
and Deprivation of Rights (42 U.S.C.1983)
under Rule 41 (A) (1).
The Supreme Court has appellate jurisdiction in matters
appealed to the Court of Appeals, and the Court of Appeals
certifies to the Supreme Court.
That the matter involves:
(1) A significant question of law under the
Constitution of New Mexico or the United
States; or
(2) An issue of substantial public interest that
should be determined by the Supreme Court.

3.

CONSTITUTIONAL, STATUTORY
and RULE PROVISIONS
Treaties:
Deprivation of Rights Under Color of Law
42 U.S.C. 1983.
Federal jurisdiction (7th edition 2016).
American law of Torts: Strict liability in Tort,
Intentional Torts.
Fifth and Fourteenth Amendments to the
Constitution of the United States, taking of
Property.
Interference with Contractual Relations.
Taking of property, Inverse Condemnation,
and Civil Conspiracy in the Second Judicial
District Court of New Mexico.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED....................................
PARTIES TO THE PROCEEDINGS......................
CORPORATE DISCLOSURE..................................
TABLE OF CONTENTS...........................................
TABLE OF AUTHORITIES.....................................
OPINIONS AND ORDERS......................................
JURISDICTION.......................................................
CONSTITUTIONAL PROVISIONS & TREATIES
STATEMENT OF THE CASE.................................
REASONS FOR GRANTING THE WRIT..............
APPENDIX...................................... .........................

1
ii

m
IV
V

1
2
3
7
3

21

STATEMENT OF THE CASE
On May 21, 2004. Emma Serna Contractor, d/b/a Serna
Associates Construction Co., LLC, completed a remodel job
for Margette Webster, at her home at, 7808 Oakland, N.E.
Albuquerque, NM. Two finals were issued, one from the city,
and one from the Construction Industries Division, (CID).
Margette Webster refused to pay her final bill. Three years
went by, and the Serna Party placed a hen on the house, for
the balance due. On the third year, after the job was completed.
no payment had been made, on the balance, Margette sued the
Construction Co., for damages. The one year warranty was over,
and the statute of limitation was over, she had breached the
contract, and during those three years, Albuquerque had
experienced heavy snow falls, strong winds, and hail storms.
In 2006, the hail storm was so strong that her new balcony
was damaged because they were exposed to the elements.
Margette and David Webster tried to repair the balcony on
their own, but made the damages worse, so they pulled all
the material off, and had a roofer re-roof the area. Margette
Webster on the third year, 2007, after her insurance company
company refused to pay for the repairs, decided to blame the

2.

damages on Serna’s construction company. Margette Webster
sued, in state second judicial district court, Emma and Mike
Serna d/b/a Serna & Associates, LLC, in 2007, a company that
Emma Serna does not own. She sued Mike Serna, a person
who did not work for the construction company. Emma Serna
then sued, Margette Webster, for breach of contract, and money
due. Serna sued as Emma Serna individually d/b/a Serna &
Associates Construction Company, LLC., 2007, as Ms. Serna is
the only member of the limited liability company. Serna’s then
attorney, Bob Simon, years later, hand wrote in an

in Serna’s

Complaint, and he then filed it, without Serna’s permission
initials or an amended copy submitted. Simon then filed for a
partial summary judgment, and he managed to mishandle the
entire hearing, so we were denied. After a year of Attorney
Simon’s consistent mishandling of the case, and consolidating the
two cases, state district court case CV-2007-06641 with CV-200709594, Serna found out that Simon was also representing Margette
and charging Emma for all the services. Serna resorted to
dismissing him, and hired another attorney. Attorney Clayton
Crowley. Crowley immediately filed for full summary judgment,
and dismiss Mike Serna from the case. On October 15, 2008, Judge
Lang granted the Serna Party summary judgment, and Mike Serna

3

was dismissed. Judge Lang had already heard, in the partial
summary judgment about the breach of contract and money due,
from Margette Webster to the Party. The minutes from the
hearing read, “the motion is well-taken, and there is a genuine
issue of material fact as to his status”. The motion for summary
judgment is granted to the Defendants. A hearing was held on
January 14, 2009 at 8:30 A.M. for the presentation of the Order,
but Crowley canceled the hearing, and never motioned the courts
again, then Judge Lang retired, and Crowley waited until 2010
when Judge Butkus was appointed. Crowley then wrote up an
incorrect order, only indicating that Mike Serna was dismissed,
but summary judgment should have been granted but was not.
Serna then hired Attorney Becht. Becht filed to have Serna’s
lawsuit dismissed. Serna Was forced to recuse Attorney Becht.
Once Attorney Crowley wrote the order incorrectly, and refused
to correct it, the Serna Party’s civil and Constitutional rights were
violated. Judge Butkus had given Serna the right to represent the
company, but refused to sign a corrected order, and said, “to thank
Mrs. Webster”, then resigned from the case. The third judge, Judge
Malott, said, “he was not going to sign Serna’s judgment, then
recused himself. The fourth judge, Judge Brickhouse, then became

4
the presiding judge, and restricted the Serna Party, from submitting
any pleadings or motions. This judge would yell at Emma, and
would decline every motion submitted to her at her office. Emma was
not to file anything, and could not defend herself. The Serna Party
then filed, in the state court of appeals for a writ of certiorari, for the
summary judgment order that had not been signed. They said Serna
was untimely, bet acknowledge the fact that Serna was granted
summary judgment. Serna then appealed this to the State Supreme
Court and they agreed with the court of appeals, and said send her
her mandate. The mandate was signed and entered against Margette
and David Webster, on March 3, 2014, and in district court on July 10,
2014. Arbitration with AAA was held, according to the contract, but the
Webster’s refused to attend, therefore they defaulted, but the arbitrator,
Calvert, refused to give Serna a judgment against them. Brickhouse
then scheduled a court annexed arbitration, and Serna refused to attend
because Brickhouse said she was not going to sign Serna’s judgment,
and that the mandate did not say, “Brickhouse sign the judgment”. The
mandate was sent to her, since she was the presiding judge, but said she
was not going to sign any judgment for Serna. Brickhouse yelled and
yelled at Serna, in the courtroom, and told Serna that all district court
judges told Serna she does not have a judgment.

5
Arbitrator Wells, then wrote out a judgment to a Margaret Webster,
and against a company that Emma Serna does not own, Emma Serna
d/b/a Serna & Associates, LLC, and it does not even say it is a
construction company. A nickname Margette gave the Serna Company.
This is a legal document.
The award was adopted as is, and Margette or her attorney never made
the changes nor was the judgmemt for Serna ever signed. Serna appeal­
ed this to the State Supreme Court, and the order came back, court of
appeals go with Serna v. Webster to end the two cases. This never
materialized.
Since, the mandate was not executed, as it should had been, Margette
has lied she is Margaret, and has committed perjury and identity theft,
and has stolen $35,000.00 from the Serna family. Margette has had the
judge sign a writ of execution directly against Mike and Emma Serna.
She sent out the Bernalillo County Sheriff’s Collection department to
collect everything from Serna’s home, without a valid judgment.

#

6

Their excuse was, the judge gave us a writ, and we do what the
judge tells us. The deputies had come out to Serna’s home a
year ago, and they knew there was no judgment. Margette wrote
out her own writ of garnishment and sent it to BBVA compass
Bank, that Margette wants all of Mike and Emma Serna’s money
that was from Emma’s mom’s insurance death benefits, and she
even sent a subpoena for Serna’s line of credit, to steal what is
available, and the attorney, Attorney Cooksey, told the bank to
give her all of Serna’s money, without a valid judgment. Everything
that the Serna’s own is in the Mike Serna’s Irrevocable Trust, and
attorney Cooksey did not act in accordance to the Irrevocable Trust,
and told the bank not to honor anything their clients, the Serna’s
said. The Serna’s took their complaint to the Consumer Financial,
and the Federal Reserve to complain that one of their banks is
giving protected money away. The Federal Reserve said, let the
courts handle it.

m
7
Serna filed a lawsuit in federal court, for the violation of her Civil
and Constitutional Rights, and transferred her state civil case into
federal court, to vacate the award which is considered void, and
federal judge, Judge Browning, refused. This judge did not even try
to restore Serna’s civil rights. Serna then appealed her case to the
Federal Court of Appeals, and they said, “Serna is not convincing”.
Judge Brickhouse and Judge Nash have misrepresented a judgment,
a writ of garnishment, a writ of execution, an order to include
Emma Serna into a false judgment. The attorney’s lied to the judge,
and Serna is the one that has paid the price all because Margette and
David Webster are friends of these judges. This all happened while
we were all in federal court. They used outside collectors while the
case was on appeal. Federal Judge Browning gave the deputies an
oral okay to collect from the Sernas. No hearing, no notice, just exparte communications to keep Margette happy.

»

REASONS FOR GRANTING THE PETITION
The Plaintiff, Emma Serna d/b/a Serna & Associates Construction
Co., LLC has exhausted all state and federal courts to have her
granted summary judgment signed and filed. A litigant should
not be put under such duress just to accomplish the signing of a
judgment, especially when the highest state court has agreed that
the Serna Party is correct. A judge who takes an oath should
abide by the oath, to uphold the constitution all the time. No judge
should deviate from the mandate as it only involves a ministerial job.
Not obeying a mandate gives the public a sense that all high officials
are going to do the same, because they are immune.
The cost, time away from the family, the loss of her first, fifth, and
fourteenth amendments, is a big price to pay because you chose the
road to truth. Yes, the state supreme court made a decision, but
when it is not carried through, you start wondering if the system is
working or it needs to be revamped. This is a human’s life they are
dealing with, and it affects the entire family and friends, and
depriving a litigant from the right to defend herself, the property
on an invalid judgment, and taking federally protected funds, and
no one cares, and they break the law on an act of greed, for a friend,
or themselves.

#
*

m

2

The erroneous thinking on the part of state district court is
intolerable, and as a general contractor, working on a home­
owner’s house, you take pride in what your sub-contractors
are doing, and you expect to get paid. A government official
that forces you to borrow money to pay the salaries, and
material used in a job, that is not your home then forces you
to surrender your hard earned money, and to a person who
falsified and used deception to defame and deprive you of your
hard earned money.
A tribunal that permits a collector to garnish your social security,
and the death benefits from your mother’s death insurance, is as
low as a person can to. I am ashamed that a tribunal would not
allow you to defend yourself, and after having three attorneys that
all were compensated by Margette Webster, in one way or another,
knew Serna could not trust another attorney.
For these, and so many other reasons this is why this petition
should be heard. Greed, hatred, abuse of the system, due process
of the law, the entire loss that the petitioner has endured. The
Petitioner has a right to bring a lawsuit when her civil rights
have been violated.

5

4

f'
£

3

Webster had a specific intent of a crime, which means Webster
acted intentionally with knowledge that she was violating the law.
See United States v. Simpson, 460 F.2d 515, 518 (9th Cir. 1972).
Webster knew that these documents were public record, and to
Shame the Sernas. See United States v. GeGroat, 30 F. 764, 765
(E.D. Mich. 1887). Webster has Serna’s computer hacked, in
order to have an advantage over what she is sending to the courts.
Serna does not have any of her financials on the computer.
The Attorney General refused to investigate into this matter
because they represent the judges involved, and Webster has
bestowed them with gifts.
CONCLUSION
The petition for writ of certiorari should he granted.
The significance of violation of a person’s civil and
constitutional rights warrant’s this Court’s immediate
review.
Respectfully submitted,
The Petitioner
Emma Serna d/b/a Serna &
Associates Construction
Co., LLC, Pro Se
P.O. Box 65384
Albuquerque, NM 87193
(505)321-1661
November 8, 2019

t* 1 K'-

STATE APPENDIX/Page 2
Appendix F: Incorrect Order of October 15,
fl, f2
2008
Appendix G: Court of Appeals issued Mandate
for Serna’s Summary judgment
lg,2g
Appendix H: Petition for Writ of Certiorari
hi, h2
Appendix I: Affidavit for minutes of granted
Summary judgment.......................................... II
Appendix J: Complaint for Foreclosure by
Margette and David Webster on Serna’s
Property and to sanction for answering the
lj,2j,3j
Complaint
Appendix K: Judge Nash’s Order to deprive
The Serna Party from answering any
kl, k2
Pleading, etc

la
APPENDIX A
Note: This order is nonprecedential
UNITED STATES COURT OF
APPEALS FOR THE
TENTH CIRCUIT
Case no. 18-2049
Emma Serna d/b/a Serna & Associates
Construction Co., LLC.,
Petitioner/Plaintiff,
v.
Margette Webster, et. al.,
Defendants/Responders
ORDER
Circuit Judges/ Lucero, Kelly, Phillips
Re: Rehearing/Denied on 01/02/2019
Petition for rehearing on default judgments, motion for executing mandate,
transfer to another judicial circuit.
Entered for the Court
Elisabeth A. Shumaker, Clerk
by: Lindy Lucero Schaible
Counsel to the Clerk

APPENDIX B
lb
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Emma Serna d/b/a Serna & Associates
Construction Co., LLC,
Plaintiff/Appellant
v.
Margette Webster, et al.,
Defendants/Appellees.
Case no. 18-2049
(D.C. No. l:17-CV-00020-JB-JHR)
(D.N.M.)
(Filed on December 13, 2018)
ORDER & JUDGMENT
After examining the briefs and appellate record this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P. 34
(a)(2); 10th Cir. R. 34.1 (G). The case is therefore ordered submitted
without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, Res Judicata,
and collateral estoppel. It may be cited, however, for its persuasive
value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 31.1.

APPENDIX B
b2
Rule 55 states default judgments must be signed when the defendant
fails to plead and/or defend himself, and the Plaintiff/Appellant sought
affirmative relief, in federal court. In Rule 60(b), Chisholm did not
plead or otherwise. An affidavit, and a motion were entered, and the
presiding judge declined to acknowledge the severity of this attorney’s
actions. According to Fed. R. Civ. P. 55(a) default was needed, and
Appellant followed this procedure. The Appellant is owed damages.
The Appellee not only represented Margette and David Webster, in
their fraudulent lawsuit, in state district court, this attorney admitted
he would, and did file a false hen against the Appellant’s property, which
is owned by an Irrevocable Trust, and the Trust was not sued or can be sued.
The complaint rose from the dispute from state court, and has continued in
federal court, due to the violation of civil and constitutional rights.
Amendments first, fifth, and fourteenth have been violated, and these
violations were and continued in federal district court. Even after, the
Appellant reported this in motion after motion, to the presiding judge,
Judge Browning.

APPENDIX B
3b
The Appellant was protecting herself, and her business, but to no
avail, the judge resorted to seek that the Appellant attend trial
against only three of the Appellees. The only ones that the Appellant
had sued previously was Margette and David Webster,and they were
the main issue for transferring the case into federal court.
There were and still are constitutional violations, and Margette and
David Webster filed another lawsuit in state district court, a
continuation of the old cases, CV-2007-06641 consolidated with
CV-2007-09594. The two Websters insist that the State court
sanction the Serna Party, and deprive them of their civil and
legal rights.

t • / r

•r

APPENDIX C
lc
IN THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF NEW MEXICO
Emma Serna d/b/a Serna & Associates
Construction Co., LLC.,
Petitioner/Plaintiff,
v.

Margette Webster, et al.,
Respondent/Defendants.
Case no. CV-17-02000-JB/JHR
FINAL JUDGMENT

Adopted magistrate judge’s third proposed findings and recommended
Disposition, dismissing this case with prejudice, and imposing filing
Restrictions upon Plaintiff Emma Serna, filed on March 31, 2018,
(Doc.179) under rule
James O. Browning/
United States District Judge
The judge refused to acknowledge the mandate, and the fact that the
magistrate judge erred in his findings, that Serna had only sued three
of the defendants.
David Webster.

The only defendants sued were Margette and

2c
There was no reason to consent to a hearing with only (3) of the
defendants, when violations of the Plaintiffs civil rights and
constitutional rights were materializing, while in federal court,
and the judge had a right to order the defendants to stop these
violations of the constitution. The judges have a pending lawsuit
against them by the Plaintiff.
APPENDIX A
la

IN THE SUPREME COURT OF THE
STATE OF NEW MEXICO
Amended Order
April 19, 2016/case no. S-l-SC-35827
Writ of certiorari/Denied, and it is Further Ordered that the
Court of Appeals may proceed in Serna v. Webster, Ct. Appl.
No. 34535; 34,755 in accordance with the Rules of Appellate Procedure.
By: Amy Mayer/Clerk of the Supreme Court
The Plaintiff filed a writ of certiorari after there had been (2) arbitrations.
1. First one was according to the construction contract. With AAA.
The Defendant’s, Margette and David Webster refused to attend
the contract arbitration. Therefore, they defaulted.
2. The Second arbitration was a court annexed, and the Plaintiff
refused to attend. The court appointed arbitrator chose not to
introduce the granted mandate for the summary judgment for the
Serna Party.

